I

No. 20-1247

Supreme Court of tlje fHmteb States
Gerald Dix
Petitioner,
v.
Edelman Financial Services, LLC,

et al.,

Respondents.

On Petition For A Writ Of Certiorari
To The United States Court of Appeals
For the Seventh Circuit

PETITION FOR REHEARING

Gerald Dix, pro se
P. O. Box 2043
Bridgeview, IL 60455
(630) 452-0134
gdix3@hotmail.com

i

TABLE OF CONTENTS
PETITION FOR REHEARING

1

CONCLUSION.........................

7

TABLE OF AUTHORITIES
Page(s)
Boag v. MacDougall
454 U.S. 364 (1982).............

6

Caniglia v. Strom
593 U. S.__ (2021)..............

passim

Dix v. Edelman Fin. Serv.,
978 F.3d 507 (7th Cir. 2020)

passim

Florida v. Jardines
569 U. S. 1 (2013)................

3

People v. Evans,
516 N.E.2d 817 (1987).........

2

Constitutional and Statutory Authorities
735 ILCS 5/9-101 et seq.
U.S. Const., amend IV

2

1, 3,4

1

PETITION FOR REHEARING
Pursuant to Rule 44.2 of this Court, Petitioner,
Gerald Dix, respectfully petitions for an order (1)
granting rehearing, (2) vacating this Court’s May 17,
2021 order denying certiorari, and (3) redisposing of
this case by granting the petition for a writ of
certiorari, vacating the judgment, and remanding to
the Seventh Circuit for further consideration in light
of Caniglia v. Strom, 593 U. S.
(2021), for the
purpose of determining whether the Fourth
Amendment protects a person and property from
seizure to effect an eviction in contravention of clearly
established law — the first question in the Petitioner’s
petition.
A petition for rehearing should present
intervening circumstances of a substantial or
controlling effect or to other substantial grounds not
previously presented. Mr. Dix submits that, on the
same day as the denial of his petition, this Court held
that “community caretaking” duties by police do not
create a standalone doctrine that justifies warrantless
searches and seizures in the home. Caniglia, at 1.
The Seventh Circuit held that the warrantless
seizure of Mr. Dix’s person and property in his own
home and on its curtilage “comfortably qualifies” as
one instance in which police officers may act as part
of their “community caretaking” function. Dix v.
Edelman Fin. Servs., 978 F.3d 507, 517 (7th Cir.
2020). The Seventh Circuit’s stance on the community
caretaking doctrine was of such vital interest to the
respondent in Caniglia that his attorney, Marc
DeSisto filed a supplemental brief attempting to

2

convince this Court that it should not grant certiorari
in that case. In his supplemental brief, DeSisto noted
that “[I]n Dix, the Seventh Circuit applied the
community caretaking function to a home entry
without hesitation...” Accordingly, this Court should
not hesitate to vacate the Seventh Circuit’s opinion in
Dix and remand this case back to the district court.
Mr. Dix and his property were unlawfully seized
by the Lisle police. The seizures were performed
without any judicial authority, specifically, a judicial
order for the Petitioner’s eviction which was known to
all Respondents at the time. The unlawful eviction
was performed by the Lisle police to breach a private
agreement between the Petitioner and Respondent,
Theresa Miller. After the Petitioner filed his civil
rights complaint, the Respondents and the lower
courts concocted meritless legal theories to justify the
unlawful eviction including the
community
caretaking doctrine. Since this Court has held that
the community caretaking exception to the warrant
requirement does not extend to the home, the
concocted reason for the Lisle police seizing Mr. Dix’s
person and property must fail.
At the time of his eviction, Mr. Dix occupied and
resided in a Lisle home deeded to Theresa Miller, and
because Mr. Dix came to reside in his home peaceably,
he could only be removed by judicial order according
to Illinois law under the Forcible Entry and Detainer
Act (735 ILCS 5/9-101 et seq.) and People v. Evans, 516
N.E.2d 817, 818-19 (1987) (Defendant who refused to
sign a lease and remained in a home owned by another
could only be removed through a forcible entry and
detainer action.)

3

In Dix, Lisle police officer, Robert Sommer first
seized the Petitioner by preventing him from
retreating into his own home to oversee the forcible
removal of his personal property from his abode, a
clear violation of the Petitioner’s Fourth Amendment
right. Furthermore, Sommer seized Mr. Dix again by
preventing him from entering the second and third
floors of his home to retrieve his property stored on
those floors. In Caniglia at 3, this Court reiterated
that the Fourth Amendment guarantees “the right of
a man to retreat into his own home and there be free
from unreasonable, government intrusion.” Citing
Florida v. Jardines, 569 U. S. 1, 6 (2013). Unlike the
case in Cagnilia, the Petitioner stored no firearms in
his home and made no suicidal threats. The Petitioner
was only interested in recovering his papers and
effects — mostly electronic equipment and ordinary
household items which he has not been able to recover
through the lower courts because of their clearly
erroneous decisions. Because the Petitioner has never
been able to recover his “effects,” his injuries from
their seizure in violation of the Fourth Amendment
continue. While Caniglia drew the ire of Second
Amendment advocates protecting gun owners, the
importance of protecting “papers and other effects” in
the home should not be diminished and the Petitioner
should also be afforded Fourth Amendment
protections in his home.
There was no objectively reasonable reason for the
Lisle police to seize the Petitioner or his property.
Instead, the Lisle police should have reminded
Theresa Miller that if she wanted Mr. Dix evicted
from her home, she needed to obtain a judicial order

4

for eviction in accordance with Illinois law, absent his
decision to voluntarily vacate the premises.
Furthermore, given the fact that the Lisle police
informed Mr, Dix not to return to his abode after the
eviction, there was no reasonable reason for the Lisle
police to prevent him from securing all his property
while still present at his home with a moving van.
Instead, the Lisle police violated the Petitioner’s
Fourth Amendment
rights
and,
thereafter,
threatened to prosecute Ms. Miller for seeking their
assistance to unlawfully evict Mr. Dix.
None of the permissible, unwelcome intrusions
cited by this Court in Caniglia existed in Dix. No valid
warrant or eviction order was procured. There were
no exigent circumstances such as a need to render
aid to an injured occupant or any imminent threat to
any of the home’s occupants or any right for the police
to take action that “any private citizen might do.” Id.
In Dix, the Seventh Circuit never articulated any
events which would constitute an exigent
circumstance and thus chose to label the unlawful
eviction as a “community caretaking” function by
police. Like the First Circuit’s “community
caretaking” rule, the Seventh Circuit’s opinion in Dix
goes beyond anything this Court has recognized, and
consequently, the lower court’s opinion must be
vacated.
This Court opined that since the respondents in
Caniglia failed to recognize the presence of any
exigent circumstances, they forfeited that point. Id.
Kim Caniglia was in a potentially deadly situation
when a firearm was produced in the course of a verbal
disagreement and chose to sleep elsewhere in light of

5

that situation. Before leaving, she haphazardly hid
the firearm while distraught over the invitation to
murder her husband. Clearly, her judgment was
impaired by distress, but the more prudent action
would have been to relinquish the firearm to a trusted
and sensible neighbor. In that case, a private and
responsible gun-owning citizen would have taken the
firearm and magazine after being apprised that Ed
Caniglia was potentially suicidal. Hence, the
Cranston police had as much of a right to seize the
firearm as a private citizen as this Court inferred.
Caniglia at 4. Although Second Amendment zealots
heralded this Court’s opinion in Caniglia as a victory,
they failed to comprehend that the gun seizure was
permissible under a different plausible legal doctrine.
This instant case does not involve any incident which
can be labeled as an “exigent circumstance” and
therefore provides another forum for this Court to
clarify its stance on the community caretaking
doctrine.
In Dix, the Respondents and the lower courts failed
to consider whether any recognized exigent
circumstances were present, and thus they have also
forfeited that point even though the Seventh Circuit
attempted to interject injuries and property damage
from other cases which were not present in this
instant case. At most, the Petitioner hurt a third
party’s feelings by criticizing her lack of skills in a
field which she was purported to be a professional
which can hardly be considered an exigent
circumstance. Furthermore, the Respondents lacked
consent to remove the Petitioner’s person from his
home and seize his property and he made verbal

6

objections to those acts. Because of his non­
threatening objections, the Seventh Circuit saw fit to
label the police actions as “community caretaking”
functions rather than exigent circumstances.
Therefore, this Court should vacate the Seventh
Circuit’s decision under its supervisory powers.
This Court must act in this case to prevent the
community caretaking doctrine from being used as a
procedural defense to warrantless seizures which
occur in the home, particularly during an illegal
eviction. “The function of the Supreme Court is...to
exercise supervisory power over the lower federal
courts.” Boag v. MacDougall, 454 U.S. 364, 368 (1982).
This Court must reverse the Seventh Circuit’s opinion
in this case in order to uphold its superior authority
over the circuit courts. This Court should note that in
the past, members of the Seventh Circuit have been
rather flippant of this Court’s authority. For instance,
when asked in 2016 which members of this Court are
worth reading, Posner said “probably only a couple of
the justices, namely Ruth Bader Ginsburg and
Stephen G. Breyer are qualified. They’re OK, they’re
not great. Those justices’ opinions are readable, and
sometimes quite eloquent. The others, I wouldn’t
waste my time reading their opinions.”1
Permitting the Seventh Circuit to apply the
community caretaking doctrine to the home will cause
chaos in Illinois, Indiana and Wisconsin as different
district courts will begin to use differing standards.
Litigants will be confused and will not have a clear
1 https://www.c-span.org/video/7c4628445/user-clipposner-scotus

7

understanding that regardless of the circumstances,
the community caretaking exception to warrantless
seizure does not extend to the home. But most
importantly, the Seventh Circuit cannot be permitted
to be dismissive of the unanimous decision by this
Court.
This Court decided a legal question in the
Petitioner’s favor and this petition for rehearing is
timely and presented well within Rule 44.2’s
limitations. There being no reason to sustain the
warrantless seizures in Dix based on the “community
caretaking” doctrine, this petition for rehearing
should be granted.
CONCLUSION
For the reasons set forth in this Petition, Gerald
Dix respectfully requests this Honorable Court grant
rehearing and his Petition for a Writ of Certiorari.
Respectfully Submitted,

Gerald Dix, pro se
P.O. Box 2043
Bridgeview, IL 60455
(630) 452-0134
gdix3@hotmail.com

'4
No. 20-1247

In The

Supreme Court of the United States
Gerald Dix,
Petitioner,
v.
Edelman Financial Services, LLC,

et al.,

Respondents.

On Petition For A Writ Of Certiorari
To The United States Court of Appeals
For the Seventh Circuit
RULE 44.2 GOOD FAITH CERTIFICATE REGARDING
PETITION FOR REHEARING OF DENIAL OF
PETITION FOR WRIT OF CERTIORARI
Gerald Dix pursuant to Supreme Court Rule 44.2 hereby certifies that the
foregoing attached Petition for Rehearing and request to vacate denial of Petition for
Writ of Certiorari is limited to intervening circumstances of a substantial or
controlling effect and/or to other substantial grounds not previously considered and
is made in good faith and not for delay. Specifically, the grounds not previously
considered include the identical issues and legal arguments in this Court’s
unanimous decision in Caniglia v. Strom, 593 U. S.
Submitted this 7th day of June 2021

{Signature page follows}

(2021) (No. 20-157).

By: Gerald Dix, pro se
P. O. Box 2043
Bridgeview, IL 60455
(630) 452-0134
gdix3@hotmail. com

sI,
I declare under penalty of perjury that the foregoing is true and correct.
SUBSCRIBED AND SWORN TO BEFORE ME this 7th day of June 2021.

Gerald Dix

'Adt

State of Illinois, County of Cook, ss. I, the undersigned, a Notary Public in and for the
said County, in the State aforesaid, DO HEREBY CERTIFY that Gerald Dix
personally known to me to be the same person whose name is subscribed to the
foregoing instrument, appeared before me this day in person, and acknowledged that
he signed the said instrument as his free and voluntary act as Witness for the uses
and purposes therein set forth
Given under my hand and official seal, this

day of June 2021.

Commission expires: O<T /"in. y->~qa
Notary Public

Official Seat
Daniel Durling
Notary Public State of lUinois
My Commission Expires 06/22/2022

